                                                                    AUDIT REPORT
                                                               Issue Date:
                                                               December 16, 1999
                                                               Number: 0-02


To:            Joseph P. Loddo
                Acting Chief Financial Officer



From:          Robert G. Seabrooks
               Assistant Inspector General for Auditing

Subject:       Audit of SBA’s FY 1998 Financial Statements – Management Letter

        Pursuant to the Chief Financial Officers Act of 1990, attached is the Independent
Auditor’s Management Letter (Attachment 1) issued by Cotton & Co., CPAs. The Management
Letter includes conditions related to the (1) transfer of funds from one fiscal year to another, and
(2) inventory of capitalized property. The conditions were identified during the audit of SBA’s
Fiscal Year 1998 financial statements but were not required to be included in the Auditor’s
Report. SBA officials agreed with the findings and recommendation. The findings in this
report are subject to review, management decision, and action by your office in accordance
with existing Agency procedures for audit follow-up and resolution. Please provide your
management decisions on SBA Form 1824, Recommendation Action Sheet, also attached, within
30 days.

       Should you or your staff have any questions, please contact Victor R. Ruiz, Director,
Business Development Programs, on (202) 205-7204.

Attachment
                 COTTON & COMPANY LLP
                                  CERTIFIED PUBLIC ACCOUNTANTS
                 333 NORTH FAIRFAX STREET • SUITE 401 • ALEXANDRIA, VIRGINIA 22314

DAVID L. COTTON, CPA, CFE              MICHAEL W. GILLESPIE, CPA, CFE     ELLEN P. REED, CPA
CHARLES HAYWARD, CPA, CPE              CATHERINE L. NOCERA, CPA           MATTHEW H. JOHNSON, CPA




                                          August 13, 1999


                           MANAGEMENT LETTER COMMENTS
                        INDEPENDENT AUDIT OF FISCAL YEAR 1998
                           PRINCIPAL FINANCIAL STATEMENTS

Inspector General
Small Business Administration

       We have audited the Small Business Administration's (SBA) principal financial
statements as of September 30, 1998, and for the year then ended and have issued our reports on
SBA’s internal control structure and compliance with laws and regulations dated August 13,
1999, to SBA under separate cover.

     The purpose of this management letter is to communicate two non-reportable findings to
SBA management.

        This letter is intended solely for the information and use of SBA management.

      We would like to express our appreciation to the SBA representatives who assisted us in
completing our audit. They were always courteous, helpful, and professional.

                                       Very truly yours,

                                       COTTON & COMPANY, LLP




703/836-6701 •   FAX 703/836-0941• HTTP://WWW.COTTONCPA.COM • E-MAIL: DCOTTON@COTTONCPA.COM
                      INDEPENDENT AUDIT OF FISCAL YEAR 1998
                         PRINCIPAL FINANCIAL STATEMENTS
                        U.S. SMALL BUSINESS ADMINISTRATION
                              NONREPORTABLE FINDINGS


        Certain nonreportable findings came to our attention during the audit of the Small Business
Administration's (SBA) Fiscal Year (FY) 1998 principal financial statements. The first finding
pertains to compliance with laws and regulations and the second to the SBA’s internal control
structure. These are discussed below.

1.     Small Business Development Center Cooperative Agreements

       The Small Business Development Center (SBDC) Program is a partnership between SBA
and host organizations to provide small businesses with quality assistance to promote growth,
expansion, innovation, productivity, and management improvement. SBA funds SBDCs through
cooperative agreements that link Federal, state, and local governments resources with those of
colleges, universities, and the private sector. To qualify for assistance, an SBDC must provide
matching funds equal to the total amount of SBA funding.

         SBA recieves annual appropriations for fundign the SBDC program. These appropriations
state that the SBDC may use the funds over a 2-year period. Payments are made to an SBDC by
the letter of-credit system when they present a “request for funds.” SBDC funds are usually
awarded for a 12-month period, and costs incurred in a specific budget period must be charged to
that period even if funds remain from the previous period. Under certain circumstances, an SBDC
may request approval to “carryover” a Federal unobligated balance to the next budget period to
make it available for spending during the next period. Carryover of unexpended funds is
permissible, however, only if these leftover funds are used for a non-recurring project or activity
within the scope of the original grant. Approved carryover requests require the issuance of a
revised Notice of Award.

        During our audit of SBA’s 1997 financial statements, we noted that the Denver Finance
Center (DFC) did not record SBDC disbursements to the correct grants. DFC officials stated that
grantees did not always identify grant numbers. We recommended that SBDCs be required to
identify grant numbers on disbursements, and that DFC reconcile each grant with the final
financial status report.

        During the reconciliation process in FY 1998, SBA found that a significant amount of
funds ($5.3 million) were unexpended by the SBDCs from prior years (including FYs 1997 and
1998). The then Chief Financial Officer directed DFC to transfer FY 1998 and 1999 drawdowns
to the FYs 1997 and 1998 accounts of some SBDCs, thereby freeing up FYs 1998 and 1999 funds.
 The transfer was made without any request from the SBDCs, to carry over funds and without
amending the Notice of Awards. 31 United States Code (USC) 150(a)(5), Grants and Subsidies,
requires that “there must be documentary evidence of the commitment” and “award terms must be
communicated to the grantee and where the grantee is required to comply with certain
prerequisites, such as matching funds, the award must be accepted by the grantee during the period
of availability of the grant funds.” SBA did, upon questioning by the auditors, move the
drawdowns back to the FYs 1998 and 1999 appropriation by reversing the accounting
transactions.

       The effect of transferring the FY 1998 drawdowns created the appearance that funds from
the FY 1998 appropriation were still available for obligation. If the transfer of funds had not
been corrected, SBA could potentially have exceeded its FY 1998 obligation authority by the
$5.3 million that was transferred.

2.     Capitalized Property

       The Office of the Chief Financial Officer (OCFO), Denver Finance Center (DFC), is
responsible for maintaining capitalized property records for SBA. Specifically, DFC maintains
records of capitalized property on the Administrative Accountable Property (AAP) system and
SBA’s general ledger control accounts in the Federal Financial System (FFS). DFC also is
responsible for reconciling the FFS control accounts to the AAP system. Property officers in
headquarters and field offices are responsible for physical inventory of capitalized property.

        In conducting our audit of SBA’s 1998 financial statements, we found that SBA does not
perform periodic inventories of its capitalized property. Further, we found that the disposal of
capitalized property is not always recorded. Because SBA does not perform periodic inventories,
it cannot assure itself that capitalize property is accurately reported on it financial statements.
This problem is compounded by the inconsistent recording of disposals on SBA property records.

        For FY 1998, SBA conducted a “Record to Floor” physical inventory of its capitalized
property, tracing property as recorded on the AAP system (Record) to the actual physical item
(Floor). It did not, however, attempt to inventory property that actually exists but may not be
recorded on the AAP system, or “Floor to Record.” This inventory thus resulted in significant
adjustments to SBA’s property accounts. We commend SBA on this effort and encourage it to
conduct the “Record to Floor” inventory as well as a “Floor to Record” inventory on a periodic
basis.

        SBA’s Standard Operating Procedure (SOP) 20-13-3, Capitalized Property Accounting,
requires that items of property on hand be periodically verified. Specifically, it states that
capitalized property be inventoried at least once a year. The cut-off date for the annual physical
inventory is September 30 of each calendar year. The SOP further requires that DFC remove
excess personal property that has been disposed of from the AAP system.

       We recommend that the Director of DFC request responsible personnel to adhere to the
requirements of SOP 20-13-3.
